Case 19-3755, Document 20, 03/18/2020, 2804850, Pagel of 1

E.D.N.Y. -C. Islip
19-cv-5328
Kuntz, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 18th day of March, two thousand twenty.
Present:
Robert A. Katzmann,
Chief Judge,
Richard C. Wesley,
Michael H. Park,
Circuit Judges.
Usman Oyibo,
Plaintiff-Appellant,
19-3755

v.
Huntington Hospital, et al.,
Defendants-Appellees.

Appellant, pro se, moves for leave to proceed in forma pauperis. Upon due consideration, it is
hereby ORDERED that the motion is DENIED and the appeal is DISMISSED because it “lacks
an arguable basis either in law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989); see also
28 U.S.C. § 1915(e).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
SECOND

r

Case 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19

PfiHlEB> PagelD #: 380

IN CLERK'S OFFICE
US DISTRICT COURT E.D.N.Y.

*
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

OCT 0 9 2019

*

BROOKLYN OFFICE
•X

USMAN OYIBO,
MEMORANDUM and order

Plaintiff,

19-CV-5328 (WFK)

v.

HUNTINGTON HOSPITAL MEDICAL CENTER;
NORTH SHORE UNIVERSITY HOSPITAL; and
MICHAEL REPICE, MD,
Defendants.
■X

KUNTZ, II, United States District Judge:
The Court received this pro se complaint from plaintiff Usman Oyibo on September 18,
2019. Plaintiffs request to proceed without the prepayment of fees is granted for the limited
purpose of this Order. For the reasons that follow, the action is dismissed.

BACKGROUND
The Complaint alleges the Court’s jurisdiction under the United States Constitution, the
Code of Federal Regulations, and the Social Security Act, but it appears to arise out of a claim
for medical malpractice. The following factual allegations are taken from the Complaint, which
incorporates Plaintiffs complaint filed in Oyibo v. Huntington Hospital Medical Center, et aL,
Index No. 605438/2015E (New York Supreme Court, Nassau County). The Complaint also
includes voluminous exhibits.
Plaintiff went to Huntington Hospital on February 22,2013 and reported that he had gout
in his toes and feet. Compl. 110. He remained in the hospital for 12 days. Compl. 1113. The
hospital conducted a “rheumatological workup” but did not conduct laboratory tests for gout,
including the synovial joint fluid test or joint aspiration. Compl. ffl| 10-11,13. “Huntington
Hospital claim[ed] Plaintiff didn’t have gout as well as the fraudulent psychiatric diagnosis.’
Compl. U 30.

- ,

Ca$e 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19 Page 2 of 10 PagelD #. 381

Plaintiff returned to Huntington Hospital on April 10,2014. Plaintiff was “dumped out
into the cold for over an hour.” Compl.\ 16,93. Plaintiff arrived at North Shore University
Hospital that same day. Compl. 194. On April 14,2014, after four days in the hospital, staff
members at North Shore told plaintiff he was being given a “test,” but then moved him into the
operating room for a surgery to which Plaintiff had not consented. Compl.

55-64. Medical

staff failed to answer Plaintiff’s questions and refused to call his father. Compl.

58, 63-70.

Plaintiff recorded this interaction and attempted to submit the recording as an exhibit to his
Complaint. Compl. H 54. Plaintiff was forcibly injected with a needle and rendered unconscious.
Compl. K 72. Medical staff, including Dr. Purtill, “viciously and fraudulently removed the
plaintiff’s toes to fraudulent conceal the plaintiff gout” [sic]. Compl. H 72.
The

Complaint makes multiple references to Plaintiffs father, Professor G.A. Oyibo, and

a theory Professor Oyibo developed called “God Almighty’s Grand Unified Theorem
(GAGUT).” Compl. U 1. Plaintiffs father participated in a May 23,2014 telephone call with
plaintiff and Dr. Purtill, in which they discussed GAGUT, Plaintiffs “genius IQ of 142,’ and
“Plaintiffs horrible medical malpractice battery attack by the defendants” and “the fraud of the
hiatry department” in telling Dr. Purtill that Plaintiff was “a crazy child.” Compl. U 74-76.
psyc
Plaintiff recorded this phone call and offered it as an exhibit to the Complaint. Compl. H 74.
Plaintiff now asserts negligence and medical malpractice. Compl. 1 28. He alleges that
Huntington Hospital and North Shore University Hospital staff “willfully, wantonly, knowingly
and fraudulently lied outright repeatedly as well as deliberately to plaintiff.” Compl. H 21.
Plaintiff states that the wounds on his feet were caused by gout and that the removal of his toes
was both a “vicious medical malpractice battery” and part of a cover-up of the hospital
Defendants’ failure to properly diagnose the medical problem. Compl.

87,91-92. Plaintiff

likens his experience to the infamous Tuskegee syphilis study, because medical staff failed to get

_Cq.se 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19 Page 3 of 10 PagelD #: 382

his informed consent, communicate with him about diagnoses or treatment, or provide accurate
£

reporting of test results. Compl. ffi| 18-21.
Plaintiff filed a claim for medical malpractice in the New York Supreme Court, Nassau
County, under Index No. 605438/2015E. That court granted summary judgment to defendants by
Decision and Order dated March 30,2018. See https Memos, courts, state, ny. us/webcivil/ (last
visited 10/2/19). Plaintiff filed a motion to vacate, which was denied on August 10,2018, and a
notice of appeal, Index No. 2018-05514, which was dismissed on July 18,2019. Plaintiff now
seeks a “change of venue” in order “to get justice which was fraudulently denied by the State
Courts...” Compl. ffi| 7, 50, 98. He alleges that state court justices refused to issue or enforce
subpoenas duces tecum and other discovery requests Plaintiff made. Compl. ffi[ 16,29,95,100,
104. He states that the justices committed fraud and covered up Defendants wrongdoing,
ignored Plaintiffs evidence, were biased against him, and reached conclusions that were
“obviously grossly fraudulent.” Compl. ffl| 23-24,26,97,100-06. He asserts that Justice
Steinman had a conflict of interest because his daughter was employed at a medical facility
affiliated with Defendants. Compl. H 102. Plaintiff suggests that the Nassau County justices
“collaborated” with the named Defendants to limit Plaintiffs discovery and ultimately caused
him to lose his malpractice action. Compl. ffl[ 104-05.

,

Plaintiff further alleges that the Appellate Division ignored his evidence and put
procedural hurdles in his way. Compl. ffi[ 32-33,35. He claims that the Appellate Division’s
“fraudulent ‘decisions’” and “clear history of Refusing to grant any relief that plaintiff has
requested” denied his right to due process. Compl. ffil 39-41.
Plaintiff asserts that these actions violated his rights to due process, which he argues is
protected under the Fifth, Ninth, and Fourteenth Amendments. Compl. 11107. He further asserts
that the hospitals’ actions constituted “cruel and unusual treatment,” ostensibly in violation of the

Case 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19 Page 4 of 10 PagelD #: 383

Eighth Amendment. Compl. 1107. He also alleges violations of Titles XVIII and XIX of the
Social Security Act and Section 482 of Title 42 of the Code of Federal Regulations. Compl. H
107. He seeks monetary damages of $181 million.
DISCUSSION
A. Standard of Review
The Court is mindful that “[a] document filed pro se is to be liberally construed, and;a
pro se complaint, however inartfully pleaded, must be held to less stringent standards than
formal pleadings drafted by lawyers.” Erickson v. Pardus, 551 U.S. 89,94 (2007) (internal
quotation marks and citations omitted). If a liberal reading of the complaint “gives any indication
that a valid claim might be stated,” the Court must grant leave to amend the complaint. See
Cuoco v. Moritsugu, 222 F.3d 99,112 (2d Cir. 2000). A federal statute, 28 U.S.C. §
1915(e)(2)(B), allows poor plaintiffs to file lawsuits without paying the usual filing fee. This
statute requires a district court to dismiss a case if the complaint “is frivolous or malicious; fails
to state a claim on which relief may be granted; or seeks monetary relief against a defendant who
is immune from such relief.” 28 U.S.C. § 1915(e)(2)(B).
Moreover, a plaintiff seeking to bring a lawsuit in federal court must establish that the
court has subject matter jurisdiction over the action. There are two types of federal subject matter
jurisdiction. To establish the first type, federal question jurisdiction, thccomplaint must have a
claim based on a federal law. See 28 U.S.C. § 1331; New York ex rel. Jacobson v. Wells Fargo
Nat'l Bank, N.A., 824 F.3d 308,315 (2d Cir. 2016) (quoting Grable & Sons Metal Prods., Inc. v.
Darue Eng’g & Mfg., 545 U.S. 308,312 (2005)). The second type ofjurisdiction is called
diversity jurisdiction, in which the plaintiff must show that plaintiff and defendants have
complete diversity of citizenship, which means that the plaintiff must live in a different state than
all the defendants, and the claim for money damages, which is called the amount in controversy,

Case 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19 Page 5 of 10 PagelD #: 384

must be for more than $75,000. See 28 U.S.C. § 1332; Handelsman v. Bedford Vill. Assocs., 213
F.3d 48, 51 (2d Cir. 2000) (“Diversity jurisdiction requires that all of the adverse parties in a suit
... be completely diverse with regard to citizenship.”) (internal quotation marks and citations
omitted). If the court “determines at any time that it lacks subject-matter jurisdiction, the court
must dismiss the action.” Fed.R.Civ.P. 12(h)(3); see Lyndomille Sav. Bank & Trust Co. v.
Lussier, 211 F.3d 697, 700-01 (2d Cir. 2000).
B. No Subject Matter Jurisdiction over Medical Malpractice Claims
Plaintiff fails to establish a basis for this Court’s jurisdiction over his claims. The
gravamen of his complaint is that two hospitals and a doctor committed medical malpractice.
“Claims for negligence and medical malpractice arise under state law, and a federal court
generally will not have original jurisdiction over the claims unless complete diversity exists.
Urena v. Wolfson, No. 09-CV-l 107 (KAM), 2010 WL 5057208, at *13 (E.D.N.Y. Dec. 6, 2010).
Plaintiff and Defendants are all located in New York State, thus Plaintiff may not rely on
diversity jurisdiction to provide a basis for federal court jurisdiction over his state medical
malpractice claims. Accordingly, plaintiffs medical malpractice claims are dismissed for lack of
subject matter jurisdiction.
Moreover, the Court would not consider Plaintiff s medical malpractice claims under its
supplemental jurisdiction, because these claims have been fully litigated in state court and are
*

thus barred by the doctrines of collateral estoppel (issue preclusion) and res judicata (claim
preclusion), which “protect parties from having to relitigate identical claims or issues and...
promote judicial economy.” Transaero, Inc. v. La Fuerza Aerea Boliviano, 162 F.3d 724,731
(2d Cir. 1998). “Collateral estoppel bars a party from raising a specific factual or legal issue in a
second action when the party had a full and fair opportunity to litigate the issue in a prior :
proceeding.” Id. Res judicata bars subsequent litigation if: “(1) the previous action involved an

Case 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19 Page»6 of 10 PagelD #: 385

adjudication on the merits; (2) the previous action involved the [parties] or those in privity with
them; [and] (3) the claims asserted in the subsequent action were, or could have been, raised in
the prior action.” Monahan v. N. Y.C. Dep't of Corrs., 214 F.3d 275, 285 (2d Cir. 2000). Even
claims based upon different legal theories are barred provided they arise from the same
transaction or occurrence.” L-Tec Elecs. Corp. v. Cougar Elec. Org., Inc., 198 F.3d 85, 88 (2d
Cir. 1999). Plaintiffs New York state lawsuit under Index No. 605438/2015E raised the same
medical malpractice claims against the same defendants. He now raises the same factual
allegations, even incorporating his state court complaint (ECF Docket Entry # 1 at 75), in a new
forum and expects to get a different answer. The principles of res judicata and collateral estoppel
are designed to prevent forum shopping and operate in this case to preclude Plaintiff from raising
the same issues in a new court.
C. No Claims Under Medicaid Regulations
Plaintiff does assert claims under federal law. He alleges that Defendants violated 42
C.F.R. § 482, et. seq., the regulations promulgated to administer the Medicaid Act, which is
incorporated into Title XIX of the Social Security Act. The Medicaid Act is a federal program
that gives funds to states to provide medical assistance to poor persons. Himes v. Shalala, 999
F.2d 684, 686 (2d Cir. 1993). The regulations contained in the C.F.R. set standards for states and
participating hospitals to follow in order to participate in the Medicaid program, but are not
designed to provide a private cause of action to enforce them. See Estate^ of Savage v. St. Peter's
Hosp. Ctr. of City ofAlbany, Inc., No. 17-CV-1363 (DJS), 2018 WL 3069199, at *5 (N.D.N.Y.
June 21,2018) (“[T]the federal Medicare and Medicaid regulations regarding standards for
medical records and care create no explicit private right of action in favor of an individual
patient, and leave the remedy for any deficiency in care or record keeping with the Secretary of
HHS, who has sole responsibility for promulgating federal health, safety and quality standards

Case 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19 Page 7 of 10 PagelD #: 386

applicable to hospitals participating in Medicare/Medicaid programs. ). The regulations
contained in 42 C.F.R. § 482 related to patient care, informed consent, and patient privacy dcj not
include a private right of action. See Evelyn V. v. Kings Cty. Hosp. Ctr., 956 F. Supp. 288,298
(E.D.N.Y. 1997) (no federal right to state enforcement of state standards of health care at
hospitals participating in the Medicaid program); Vinson v. Noele, No. 19-CV-5788,2019 WL
4858803, at *2 (W.D. Wash. Oct. 2,2019) (no private cause of action to vindicate any violation
of § 482.13); Ogletree v. Vigil, No. CV 17-3724,2018 WL 582391, at *3 (E.D. La. Jan. 29,
2018) (no private right of action for a patient who claimed to have been restrained in violation of
42 C.F.R. § 482.13(e)); Cornerstone Therapy Servs., Inc. v. Reliant Post Acute Care Sols., LLC,
No. 16-CV-0018,2016 WL 6871440, at *8 (W.D. Va. Nov. 21,2016) (No private right of action
under 42 C.F.R. § 482.13(b)(1) and (2)); Smith v. Univ. ofMinn. Med. Ctr.-Fairview Riverside,
No. Civ. 09-293,2010 WL 3893902, at *16 (D. Minn. July 14,2010) (No private cause of action
to enforce § 482.13), report and recommendation adopted, 2010 WL 3893849 (D. Minn. Sept.
30,2010); Abner v. Mobile Infirmary Hosp., 149 Fed. Appx. 857, 858 (11th Cir. 2005) (the
Medicare Act does not create a private right of action for negligence). Accordingly, Plaintiffs
reliance on 42 C.F.R. § 482 is misplaced, and these claims are dismissed.
D. Constitutional Claims
Plaintiff also asserts civil rights claims, which may be cognizable under 42 U.S.C. §
1983. In order to maintain a § 1983 action, a plaintiff must allege that “the conduct complained
of [was] committed by a person acting under color of state law,” and “deprived a person of
rights, privileges or immunities secured by the Constitution or laws of the United States.
Pitchell v. Callan, 13 F.3d 545, 547 (2d Cir. 1994). Section 1983 does not extend to harms
caused by private individuals or private organizations. As the Supreme Court has held, ‘the
under-color-of-state-law element of § 1983 excludes from its reach merely private conduct, no

, ,

Case 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19 Page 8 of 10 PagelD #: 387

matter how discriminatory or wrongful.” American Mfrs, Mut. Ins. Co. v. Sullivan, 526 U.S. 40,
50 (1999) (quotations omitted). Although the under-color-of-state-law requirement can be
applied to private individuals and institutions in certain limited circumstances, such as where the
private institution is engaged in a “public function” or performs conduct that is “fairly
attributable to the state,” Id., 526 U.S. at 51, these exceptions are narrow. A private entity does
not become a state actor merely by performing under a state contract, by accepting state or
federal funds, or because it is subject to state regulation. Cranley v. Nat'l Life Ins. Co. of
Vermont, 318 F.3d 105,112 (2d Cir. 2003) (“A finding of state action may not be premised
solely on the private entity’s creation, funding, licensing, or regulation by the government. );
Blum v. Yaretsky, 457 U.S. 991 (1982) (finding that private nursing homes were not state actors,
even though they accepted Medicaid funds and were subjected to Medicaid regulations);
Rendell-Baker v. Kahn, 457 U.S. 830, 841 (1982) (“Acts of such private contractors do not
become acts of the government by reason of their significant or even total engagement in
performing public contracts.”); Jackson v. Metropolitan Edison Co., 419 U.S. 345,350 (1974)
(“The mere fact that a business is subject to state regulation does not by itself convert its action
into that of the State.”). In this case, North Shore University Hospital and Huntington Hospital
are both subsidiaries of Northwell Health, a private health care network. Their participation in
and regulation by federal and state programs does not convert them into state actors subject to
liability under 42 U.S.C. § 1983. Accordingly, Plaintiffs civil rights claims are dismissed for
failure to state a claim pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii).
Even if Defendants were state actors, Plaintiff has failed to allege a violation of his civil
rights. He alleges that the Defendants violated his rights under the Eighth Amendment by
subjecting him to “cruel and unusual treatment.” The Eighth Amendment's prohibition against
cruel and unusual punishment protects those who have been convicted of a crime. Farmer v.

Case 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19 Page 9 of 10 PagelD #: 388

Brennan, 511 U.S. 825 (1994). It does not appear that Plaintiff was arrested or convicted, and so
the Eighth Amendment does not apply to the medical treatment he received in the non-custodial
context of a private hospital in which he voluntarily sought treatment.
Plaintiffs purported claims under the Fifth, Ninth, and Fourteenth* Amendments appear
to relate to the state courts’ dismissal of his medical malpractice action. He alleges that the
Supreme Court justices and the judges on the Appellate Division panel, none of whom is named
as a defendant, violated his right to due process by denying his discovery requests and failing to
give him either the hearing or the outcome that he wanted. However, even if Plaintiff had named
as defendants the courts or the judges who presided over his case and dismissed his appeal, these
potential defendants would be immune from suit. The Eleventh Amendment bars suits against
states, state agencies, and state officials acting in their official capacity, absent the state s consent
to suit or an express or statutory waiver of immunity by Congress. See Board of Trustees of
Univ. ofAlabama v. Garrett, 531 U.S. 356,363 (2001); Gollomp v. Spitzer, 568 F.3d 355,368
(2d Cir. 2009) (“[T]he New York State Unified Court System is unquestionably an ‘arm of the
State, and is entitled to Eleventh Amendment sovereign immunity.” (citation omitted)).
Moreover, judges have absolute immunity from suits for damages arising out of judicial acts
performed in their judicial capacities. Mireles v. Waco, 502 U.S. 9,11 (1991); Forrester v.
White, 484 U.S. 219,225 (1988). The absolute judicial immunity of the court and its members
“is not overcome by allegations of bad faith or malice,” nor can a judge “be deprived of
immunity because the action he took was in error... or was in excess of his authority. Mireles,
502 U.S. at 11,13 (quotations and citations omitted). Judicial immunity may be overcome only if
the court is alleged to have taken nonjudicial actions or if the judicial actions taken were “in the
complete absence of all jurisdiction.” Mireles, 502 U.S. at 11-12.

Case 2:19-cv-05328-WFK-RER Document 6 Filed 10/09/19 Page 10 of 10 PagelD #: 389

Plaintiffs due process claim is centered on his disappointment with how the Nassau
County Court and the Appellate Division handled his lawsuit and the appeal, actions squarely
within the presiding judges’ judicial capacity. Accordingly, even if the judges had been named as
defendants, the civil rights claims against them would have been dismissed pursuant to 28 U.S.C.
§ 1915(e)(2)(B)(iii).
CONCLUSION
For the reasons set forth above, the Complaint is dismissed pursuant to Fed. R. Civ. P.
12(h)(3) and 28 U.S.C. § 1915(e)(2)(B). The Court certifies pursuant to 28 U.S.C. § 1915(a)(3)
that any appeal would not be taken in good faith and therefore in forma pauperis status is denied
for purpose of an appeal. See Coppedge v. United States, 369 U.S. 438,444-45 (1962).
SO ORDERED.

s/WFK
WILLIAM F. KUNpfU
United States District Judgj
Dated: Brooklyn, New York
October 9, 2019

10

